Arrowhead Visa® Credit Card
Agreement and Disclosure Part 2 of 2
Important - Retain For Your Records

Effective: September 1, 2019

CARD AGREEMENT
This Visa Credit Card Agreement and Disclosure Part 2 of 2 (“Agreement”) is your contract with us and contains important
terms and conditions. The Account Opening Disclosure document, labeled as Part 1 of 2, is part of this Agreement. The
Account Opening Disclosure shows important information about your account, such as your annual percentage rate and
certain fees. Any amendments to this Agreement are also part of this Agreement. Please read all parts of this Agreement
and keep for your records.
DEFINITIONS
The following definitions apply to this Agreement:
• ACCOUNT: The line of credit associated with your Arrowhead Visa Credit Card or Visa Classic Secured Credit
Card account with us.
• ACCOUNT BALANCE: All authorized charges, plus any finance charges assessed on your account, plus any other
fees and charges which you owe to us under the terms of this Agreement.
• AUTHORIZED USER: Any person you allow to use your account with a card we provided with that person’s name.
• BILLING CYCLE: The period of time between each date when we create a periodic statement for your account. A
billing cycle is usually 28—30 days. For each billing cycle, your statement will show any transactions, other charges,
payments and other credits posted during that billing cycle.
• CARD: The Arrowhead Visa Credit Card issued to you (and any duplicates and renewals we may issue) used to
access your account to obtain credit.
• CONSUMER REPORTING AGENCY: An organization, such as Experian, Equifax and TransUnion, that compiles
credit information for the purpose of generating consumer credit reports. It is also known as a “credit bureau” and
a “credit reporting agency.”
• LATE PAYMENT: A payment is late if you do not pay at least an amount equal to the minimum monthly payment
by the payment due date.
• RETURNED PAYMENT: A payment not honored by your financial institution.
• TRANSACTION: A purchase, balance transfer or cash advance, as applicable.
• YOU, YOUR, and YOURS: Each and all of those who apply for or use the card and/or VISA Credit Card Account.
• WE, US, and OUR: ARROWHEAD CREDIT UNION.
MILITARY LENDING NOTICE
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may
not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums, fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts);
and any participation fee charged (other than certain participation fees for a credit card account).
Call (888) 644-2183 to hear the above disclosures and a description of your payment obligations.
YOUR ACCOUNT
BINDING AGREEMENT: This Agreement takes effect once you use your card. Even if you do not use your card, this
Agreement will take effect unless you contact us to cancel your account within thirty (30) days after we sent you this
Agreement.
ACCOUNT USE: Your account use is subject to this Agreement. All transactions are subject to our approval. You may use
your card to purchase goods and services in person, online, and by mail or telephone from merchants and others who
accept Visa credit cards. In addition, you may obtain cash advances from the Credit Union, from other financial institutions
or select merchants participating in the Visa program and from automated teller machines (ATMs), such as Visa ATM
Network, that provide access to the Visa system. Not all merchants or ATMs provide such access. You will need to use your
personal identification number (PIN) to obtain a cash advance from an ATM.

RESPONSIBILITY: You agree to pay all charges (purchases, balance transfers or cash advances) to your account made
by you or anyone who you authorize to use your account, even if that person exceeds your permission. You cannot disclaim
responsibility by notifying us, although we will close the account if you so request. Your obligation to pay the account balance
continues even though an Agreement, divorce decree, or other court judgment to which we are not a party may direct
someone else to pay the account balance. The cards remain our property and you must recover and surrender to us all
cards upon our request and/or upon termination of this account.
JOINT ACCOUNTS: If this is a joint account, each of you will be individually and jointly responsible for paying all amounts
owed under this Agreement. This means that we can require any one of you individually to pay the account balance. Each
of you authorizes the other to make transactions individually. Any one of you may close the account and such closure will
be effective as to all of you.
SIGNATURE REQUIREMENT: In order for your card to be valid, you must activate and sign the card as soon as received.
CREDIT LIMIT: We assign a credit limit to your account. Part of this credit limit may be available for cash advances. You
agree to manage your account so your account balance (including fees and charges) is not more than your credit limit.
However, if your account balance exceeds your credit limit, you are still obligated to pay us. We may increase or decrease
your credit limit at any time and we may notify you of such increase or decrease by mail or through a statement sent to the
primary accountholder’s address of record, in accordance with applicable legal requirements. If you object to any credit limit
increase, you must notify us immediately. You may request an increase to the credit limit orally, in writing, or electronically,
but any such request must be approved by us. Any request from you to reduce or suspend the credit limit must be submitted
in writing. If your credit limit is increased, you are immediately responsible for the new credit limit and any increase in the
account balance even when it differs from an amount previously agreed to orally or in writing.
CONSUMER PURPOSES: You may use your account only for personal, family or household uses; you may not use the
account for business purposes. If you do use your account for business purposes, this Agreement still applies and you must
pay us for those transactions. We may close your account if we learn that you are using it for business purposes.
UNLAWFUL TRANSACTIONS: Your card or account may not be used directly or indirectly for: 1) any illegal activity or
transaction; or 2) any gambling, gaming, betting, or similar activity or transaction. Further, you may not use your card or
account for the purchase of any goods or services on the Internet that involve gambling, gaming, betting, or any similar
transaction or activity. Such transactions include, but are not limited to, any quasi-cash or online gambling transaction, any
electronic commerce transaction conducted over an open network, and any betting transaction including the purchase of
lottery tickets or casino gaming chips/checks or off-track betting or wagering. However, in the event that a charge or
transaction described in this paragraph is approved and processed, you will still be responsible for such charges. If you use
your card or account directly or indirectly in an unlawful manner you understand that your account may be declared in
default and that we may exercise any rights available to us, including, but not limited to, accelerating your account balance
and demanding immediate payment.
MOBILE PHONES OR OTHER DEVICES: Smart phones, tablets and other electronic devices can store your card (such
as through a mobile wallet). This means they can be used to make purchases or other transactions. Any such transactions
are covered by this Agreement. Apps that use your card to make transactions may have separate terms of use. We are not
responsible if you violate those terms, or for any consequences resulting from any violation.
AGREEMENT AND BENEFIT CHANGES
CHANGES TO THIS AGREEMENT: Account and Agreement terms are not guaranteed for any cycle of time. We may
change this Agreement for any reason and at any time, subject to applicable law. This means that we can change rates and
fees that apply to your account. It also means we can add, remove, replace or modify provisions of this Agreement. If
required by applicable law, we will give you notice of the changes. If you have the right to reject a change, we will notify you
and tell you how to reject. If we notify you of a change, we may do so on your periodic statement or send you a separate
written notice, either of which may be sent to you in an electronic format if you have agreed to receive notices from us
electronically. Except as prohibited by law, any change in terms will apply to your existing account balance as well as to
future transactions. We may change the terms of this Agreement based on information in your credit report, market
conditions, and business strategy or for any other reason.
CHANGES TO BENEFITS: Any benefit, reward, service or feature offered may change or be discontinued at any time for
any reason. Separate terms and conditions will describe any exceptions.

2

09/2019

ANNUAL PERCENTAGE RATES AND INTEREST CHARGES
VISA VARIABLE RATE PROGRAM: This section explains how we calculate rates and interest charges applicable to your
account. Your variable APR information is shown in Part 1 including any promotional or introductory APR that may apply
when your account is opened. We use annual percentage rates (APRs) to calculate interest charges on your account. Our
VISA program is a variable rate program, which means that your APR may increase or decrease each billing cycle while
you maintain your account with us.
The standard variable APR is subject to change each billing cycle based on an increase or decrease in the Prime Rate
(Index). The Prime Rate (Index) is the highest Prime Rate (Index) published in The Wall Street Journal. In the event that
the Prime Rate (Index) ceases to be published, changes in your APR will be provided to you on your periodic statement or
through a separate notice. We calculate your APR for transactions by adding an amount, which we call the margin, to the
Prime Rate (Index) in effect the last day of the billing cycle. You can find the margin, your initial Prime Rate (Index), daily
periodic rate and corresponding APR we use for your account in the Account Opening Disclosure.
Your APR will increase if the Prime Rate (Index) increases and decrease if the Prime Rate (Index) decreases. If your APR
increases, then your interest charges and minimum payment due may increase. If the Prime Rate (Index) changes, we will
apply the new variable APR starting from the first day of the billing cycle on your periodic statement when we take the Prime
Rate (Index) from The Wall Street Journal. The new APR will apply to existing balances and balances added to your account
after the change.
There is no minimum or maximum APR that can apply during the term of this Agreement. There are no annual (or other)
limitations on changes to the APR during the term of this Agreement. Purchases, balance transfers and cash advances are
all subject to the same APR. The daily periodic rate is determined by dividing the APR by 365 and will change when the
APR changes.
PROMOTIONAL OR INTRODUCTORY RATE APR: From time to time and at our discretion, we may offer you a promotional
APR for all or any part of your account balance, balance transfer or future transactions. The period of time for which the
promotional APR applies may be limited. Any applicable promotional APR, the corresponding periodic rates, and the period
of time during which they are in effect will appear on the offer. Any promotional rate offer will be subject to the terms of the
offer and this Agreement.
PENALTY ANNUAL PERCENTAGE RATE: If you have a late or returned payment that causes your account to be sixty
(60) days past due, we may apply a penalty APR to your account. If you have an introductory or promotional APR at the
time your account is sixty (60) days past due, your introductory or promotional APR will be terminated and your penalty APR
will apply. We determine your penalty APR based on your creditworthiness. We will provide you notice of such penalty APR
prior to the effective date of the penalty APR.
The penalty APR will apply to all outstanding balances and future transactions that occur more than fourteen (14) days after
we provide you notice of the penalty APR increase. The penalty APR will continue to apply until you make six (6) consecutive
minimum monthly payments when due beginning with the first (1st) payment due after the effective date of the increase.
After you make six (6) consecutive minimum monthly payments the penalty APR will no longer apply to those balances. If
you do not make six (6) consecutive minimum payments on or before the payment due date, we may keep the penalty APR
on your account indefinitely.
INTEREST CHARGES: Interest charges will be imposed on transactions only if you elect not to pay the entire account
balance shown on your periodic statement for the previous billing cycle by the payment due date shown from the closing
date of that statement. If you elect not to pay the entire account balance shown on your periodic statement by the payment
due date, interest charges will be imposed on the unpaid average daily balance of transactions from the previous statement
closing date and on the new transactions from the date of posting to your account during the current billing cycle, and will
continue to accrue until the closing date of the billing cycle preceding the date on which the entire account balance is paid
in full
We calculate interest on your account each billing cycle by applying the daily periodic rate to the average daily balance
(including new transactions). The following explains how we do this. To get the average daily balance of purchase
transactions:
•
•

We take the beginning balance of your account each day and add any new transactions, fees and other charges.
We subtract any credits or payments credited as of that day and any unpaid interest or other finance charges.

3

09/2019

This gives us the daily balance. Then, we add up all the daily balances for the billing cycle and divide the total by the number
of days in the billing cycle. This gives us the average daily balance. Your balances, and their corresponding APRs, are
shown on your periodic statement.
GRACE PERIOD: You will not pay any interest on transactions if you pay the account balance in full by the payment due
date shown on your periodic statement each billing cycle. We call this a grace period. Generally you will have at least a
twenty-one (21) day grace period from the close of each billing cycle to pay the account balance without incurring additional
interest charges provided that either: 1) we received payment in full of the ending balance for the previous billing cycle by
the payment due date disclosed in the periodic statement for the previous billing cycle; or 2) the ending balance of the
previous billing cycle was $0. If you have a grace period to pay the account balance for any billing cycle, and do not pay the
account balance in full during this grace period, interest charges will be assessed on any portion of the account balance not
paid during the grace period using the average daily balance method as explained above. The payment due date disclosed
on each periodic statement provided to you is the last day of your grace period for that statement’s billing cycle.
FEES
The following fees will be added to your account, as applicable:
Fee

Amount

About the Fee

Annual Cardholder Fee

None

Balance Transfer Fee

None

Cash Advance Fee

None

Foreign Transaction
Fee

1% of each transaction in U.S. dollars
(transactions made in foreign currency) or
0.8% of each transaction in U.S. dollars
(transactions made in foreign currency,
billed in U.S. dollars)

See section entitled “Foreign Transactions”
below for additional details.

Late Payment Fee

Up to $15

We have the right to charge you a late
payment fee of $15 if you do not pay at least
an amount equal to the minimum monthly
payment within fifteen (15) days after the
date the payment is due. The amount of the
late payment fee will never be higher than
your minimum monthly payment.

Over-the-Limit Fee

None

Returned Payment Fee

None

FOREIGN TRANSACTIONS: Purchases, cash advances, and credits made in foreign currencies will be billed to your
account in U.S. dollars. The conversion to U.S. dollars will be made in accordance with the Visa operating regulations for
international transactions. In the event that an international transaction is converted to U.S. dollars the exchange rate
between the transaction currency and the billing currency used for processing international transactions will be: 1) a rate
selected by Visa from the range of rates available in wholesale currency markets for the applicable central processing date,
which rate may vary from the rate Visa itself receives; or 2) the government-mandated rate in effect for the applicable central
processing date. The rate in effect on the applicable processing date may differ from the rate on the date you used your
card. When a credit to the account does not fully offset a charge to the account due to changes in the rate, you are
responsible for the difference. For purchases, cash advances, and ATM and non-ATM cash transactions, we will charge a
foreign transaction fee in an amount equal to one percent (1%) of the amount of the purchase, cash advance or credit, if
the transaction requires a currency conversion, or 0.8% of the amount of the purchase, cash advance or credit, if the
transaction is made in a foreign currency but billed in U.S. dollars. The above fees for the billing cycle will be shown on your
periodic statement.
PAYMENTS
MINIMUM PAYMENT: Every month, you must pay at least the minimum payment due by the payment due date shown on
your periodic statement. The minimum payment due will be 3.00% your account balance, but not less than $25.00; or your
account balance if it is less than $25.00. In addition, you must pay any amount past due, plus any amount over the credit
limit.
4

09/2019

APPLICATION OF PAYMENTS: We decide how to apply your payments, to the balances on your account. We may apply
the minimum monthly payment amount first to interest charges, then to the balance with the highest APR and then to
balances with lowest APRs.
PAYMENT INSTRUCTIONS: You must follow the instructions below when making a payment. If you do, we will credit the
payment to your account as of the day we receive it.
• Payments should be sent to Arrowhead Credit Union, Attention: Item Processing, PO Box 4100, Rancho
Cucamonga, CA 91729-9998.
• We must receive your payment on or before the payment due date in order for your account to be credited by the
payment due date.
• You must pay in U.S. dollars.
• You must use a check or electronic debit issued by a financial institution in the United States (do not mail cash)
• You must not send us a check dated after the date that we receive it.
• You must not enclose more than one check per envelope.
• You must not include any restrictive endorsements on the check.
• You must follow the additional payment instructions shown on your periodic statement.
If you do not pay in U.S. dollars and we accept your payment, we will select the currency conversion rate, and you must
pay our costs. If you do not follow our payment instructions, we may not accept your payment, or there may be a delay in
crediting your account. Either may result in late fees and additional interest charges to your account. If you do not follow the
payment instructions in this Agreement or on your periodic statement, we may accept your payment without losing our
rights.
PREPAYMENT OR IRREGULAR PAYMENTS: You are required to pay the minimum payment due, however you have the
right to pay your account balance at any time without penalty. You will only be charged interest charges to the date you pay
your entire account balance. You may make larger payments without penalty and this may reduce the total amount of
interest charges that you will pay. If you pay more than the minimum payment due in any month and there is still a balance
due, you must continue to make minimum payments in future months. Any partial payment of your account balance will not
advance your next payment due date(s). You understand and agree that any payment that (a) delays or (b) accelerates the
repayment of your account balance will (a) increase or (b) decrease your daily periodic interest charge.
PAYMENTS BY AUTOMATIC TRANSFER: By separate Agreement, you may authorize us to automatically transfer the
minimum payment due from your Credit Union savings or checking account. If you request payment by automatic transfer,
you understand and agree that no payment can or will be made if there are insufficient or uncollected funds in the designated
savings or checking account to make the scheduled payment. Should this event occur, you understand and agree that you
will not be released from making the payment. Any automatic transfer you have requested will remain in effect until you
cancel it in writing or the account balance is paid in full. To stop a payment by automatic transfer, you may send us a letter
requesting that the payment be stopped. Your letter must be received by Arrowhead Credit Union, PO Box 4100, Rancho
Cucamonga, CA 91729-9998 at least three (3) business days before the automatic payment is scheduled to occur. We
may cancel this service at our discretion.
RECURRING PAYMENTS: The use of your account to make preauthorized electronic recurring bill payments constitutes
an “electronic fund transfer” as defined by the Federal Electronic Fund Transfer Act and Regulation E. You may be able to
place a stop payment on a preauthorized electronic recurring bill payment in accordance with the terms of our Member
Account Agreement and Disclosure with you. Any such stop payment order is subject to a stop payment fee for each stop
payment order you give. A stop payment/revocation order does not release you from the obligation to pay for goods and
services purchased from merchants.
CREDIT REPORTING
CREDIT REPORTING: In connection with our issuance of a card to you, we are allowed to obtain information about you.
We get it from consumer reporting agencies and other sources that provide consumer financial information. We are allowed
to use the information for:
• Renewal of your account;
• Credit limit increases or decreases;
• Administration or review of your account, collection and any other servicing;
• All other credit-related purposes connected with this Agreement;
• Offers for other cards, insurance products and other services; and
• Other uses permitted by law.

5

09/2019

We report account information in your name, as well as information about you to consumer reporting agencies, on a monthly
basis. The information we provide may appear on your credit reports. This can include information about:
• Late payments;
• Returned payments;
• Over-the-credit-limit amounts; and
• Other violations of this Agreement.
If you think we have given incorrect information to a consumer reporting agency about you (or about an authorized user),
contact us at (800) 743-7228 and we will research it. We will let you know if we agree or disagree with you. If we agree with
you, we will contact each consumer reporting agency
ACCOUNT INFORMATION, PRIVACY, AND COMMUNICATIONS
ACCURACY OF AND CHANGES TO ACCOUNT INFORMATION: You represent and warrant that the information provided
in your credit application is accurate, and you agree to notify us in writing immediately if this information changes. If you do
not, or if we ask you to verify your account information and you cannot, we may suspend or close your account.
INFORMATION SHARING: You understand and agree that we may share information about you and your account as
permitted by applicable law. This includes information we obtain from you and others. Our privacy notice, which is enclosed
with your new membership materials, describes reasons the Credit Union can share its members’ personal information.
CONTACTING YOU: You agree that we (and/or our authorized agents) may contact you at any phone number, email
address or mailing address you provide. This includes communications to mobile, cellular/wireless, or similar devices. We
may contact you by live operator, auto-dialer, prerecorded or artificial voice, text or email. You agree to pay any charges
from your plan provider for communications we send to you, as well as communications you send to us.
CALL MONITORING: We may listen to and record telephone calls between you and us for the purpose of improving the
quality of service you receive.
NOTICES: We send any notices to your billing address, or, if you have agreed to receive notices from us in an electronic
format, we will send notices to you in an electronic form. We consider a notice sent as soon as we mail it. We consider an
electronic notice sent as soon as we email it, unless we receive notification that the email was undeliverable.
AUTHORIZED USERS
ACCOUNT USE BY AUTHORIZED USERS: You may request to add one or more authorized users to your account. If we
approve your request, use of your account by an authorized user is subject to the terms of this Agreement. You must:
• Obtain permission from each authorized user before naming him or her as an authorized user on your account.
• Make a copy of this Agreement available to each authorized user.
• Pay us for all charges incurred by each authorized user.
• Notify us to remove an authorized user from your account. If we remove an authorized user, we may close your
account, open a new account, and issue you a new card. We may limit the number of authorized users on your
account.
You are responsible for:
• Any transactions made by an authorized user on your account.
• Any transaction made by an authorized user even if the postdate shown on your periodic statement for that
transaction occurs after the date you ask us to remove the authorized user from your account.
• Any transactions made by others if an authorized user allows them to use your account.
• Fees and charges resulting from any transactions made by an authorized user or others if an authorized user allows
them to use your account.
ACCOUNT INFORMATION RIGHTS FOR AUTHORIZED USERS: An authorized user cannot add other authorized users,
adjust the credit limit or close the account.
INFORMATION ABOUT AUTHORIZED USERS: You agree to give us certain personal information about each authorized
user. You must let each one know that you will give us that information and you must have his or her permission to do so.
You must have permission from each one to allow us to share information about him or her as permitted by applicable law.
This includes information we may obtain from you, any authorized user and others. It also includes information about their
transactions on the account.
6

09/2019

DEFAULT, CLOSING OR SUSPENDING THE ACCOUNT
DEFAULT: You will be in default if:
• You do not pay at least the minimum payment due or other required payment by the due date;
• You have a returned payment;
• You do not honor any of the terms of this Agreement;
• You make any false or misleading statements in any credit application or credit update;
• Your creditworthiness is impaired;
• You file for bankruptcy or some other insolvency proceeding is filed by or against you; or
• You are declared incompetent or mentally incapacitated, or you die.
CLOSING OR SUSPENDING YOUR ACCOUNT: We may close or suspend any and all account and card privileges if any
of the events listed above occurs, or for any reason, or for no reason. We may do this at any time, without notifying you, as
permitted by law. We may cancel your current card and issue you a substitute card at any time. You also may close your
account at any time by notifying us by telephone or in writing. If we close or suspend your account, or if you close your
account, you understand and agree that you remain obligated to pay the entire account balance, and we have the right to
demand immediate payment of the entire account balance, including interest charges, transaction fees, and other finance
charges and late charges. You understand and agree that interest charges at the APR as permitted under this Agreement
will continue to accrue until you pay your entire account balance.
CLOSING A VISA CLASSIC SECURED CREDIT CARD ACCOUNT: If your account is a secured account, you gave us a
security interest in a deposit account you maintain with us. This secures repayment of your account. If you withdraw your
funds from the deposit account, we will close your account. If you gave us a security interest in a deposit account, we may
use the deposit amount to pay any amount you owe.
TRANSACTIONS
REFUSAL OF THE CARD: Most transactions require approval of funds, which result in placing a hold against the credit
limit. We do not guarantee approval of transactions. We are not liable for those that are not approved, even if you have
enough available credit on your account. If we detect unusual or suspicious activity, we may suspend your credit privileges.
We may also limit the number of transactions approved per day. We may, although we are not required to, approve
transactions above your available credit limit.
MERCHANT FEES: Some merchants, including merchants outside the U.S., may charge you a fee to use your card for a
purchase. The fee will be either a percentage of the amount of your purchase or a flat fee, and will be added to the amount
of your purchase. Usually, a merchant will tell you about this fee before you use your card, but not always. We do not control
these fees and we cannot prevent them.
RETURNS AND ADJUSTMENTS: A merchant refund to your account will post to your account as a credit. We do not
control when a merchant sends an account credit. We will choose how to apply the credit to your existing account balance.
If a credit fails to post to your account, you may request our help in having the credit applied to your account by sending us
a copy of the credit receipt issued by the merchant. You have the sole responsibility to obtain written proof of credit and to
retain copies of credit receipts until the credit is properly applied to your account. If your credits and payments exceed what
you owe us, we will hold and apply this credit balance against future transactions, or if it is $1.00 or more, refund it on your
written request or automatically after six (6) months.
RECURRING AUTHORIZED TRANSACTIONS: If you authorize a merchant or any other person to charge your account
for recurring transactions, you must notify the merchant if:
• You want to discontinue these transactions;
• Your account is closed;
• Your account number changes;
• Your card expiration date changes.
You are responsible for reinstating any recurring authorized transactions.
TERMS AND CONDITIONS APPLICABLE TO VISA CONVENIENCE CHECKS
CHECK USES: Convenience checks (including balance transfer checks) are checks that the Credit Union may send you to
access your account. The following terms will apply to the use of those checks unless otherwise disclosed with the checks.
You can use your convenience checks to purchase goods and services, to obtain cash up to the amount of your credit limit,
or to conduct balance transfers up to the amount of your credit limit. Use of convenience checks to purchase goods and
services or to obtain cash up to the amount of your credit limit is considered a cash advance on your account. The Credit
7

09/2019

Union will charge interest beginning as of the date the Credit Union receives the convenience check. You cannot avoid
paying interest on convenience check transactions. Any special rules applicable to credit card purchases described in this
Agreement or any other features pertaining to card purchases do not apply to convenience checks.
LIMITATIONS: We are not required to honor a convenience check that will cause you to exceed your credit limit. We will
not pay a convenience check if at the time that it is presented:
•
•
•
•

You are in default or we have suspended, terminated, or canceled your account;
The convenience check is not in the form we have issued to you;
Your signature or the payee’s name or endorsement is missing on the convenience check or the convenience check
appears altered; or
Your convenience check is post-dated.

Convenience checks may be used only by the person(s) whose name(s) is/are printed on the check. You are responsible
for all authorized use of convenience checks. You may not use convenience checks to make a payment on any other
obligation you have with the Credit Union, including paying any amount that you owe us pursuant to this Agreement. Certain
merchants may inform you of their intent to convert your convenience check payment to an electronic ACH debit. For mailed
payments, this notification will be provided at the time you receive a bill. For payments made in person, this notification will
be provided at the time payment is made. You understand and agree that convenience checks are ineligible for conversion
to an ACH debit and if presented by a merchant to us for payment, we are required to reject and return the entry. Using
convenience checks for payments to merchants who have notified you of their intent to convert your check to an ACH debit
may result in merchant returned item fees and/or late charges. You further understand and agree that you may not attempt
to authorize a one-time advance from your account via ACH by providing check information (such as the routing, account,
and serial numbers) to a merchant or other payee in person, via the Internet or by telephone for the purpose of having such
merchant or other payee electronically initiate a funds transfer. The Credit Union will not be liable for any fees you incur as
a result of the Credit Union’s failure to honor a convenience check that is converted to an ACH debit.
PERIODIC STATEMENTS: Your periodic statement will show you an itemization of the convenience checks posted to your
account during the billing cycle. Convenience checks paid by the Credit Union will not be returned to you with your periodic
statement.
RETURNED CONVENIENCE CHECK: The Credit Union may decline to honor such convenience checks if, for example:
•
•
•
•
•
•
•
•

The amount of the convenience check would cause you to exceed your cash advance credit limit;
If you are in default;
If you did not comply with the instructions included with the convenience check;
If the convenience check appears altered or is missing information;
The convenience check was used by someone other than the person to whom the convenience check was sent;
The card has expired or was revoked;
Your account is closed or suspended; or
The convenience check was converted to an ACH transaction.

STOP PAYMENT: You may stop payment on a convenience check by notifying us in writing at the address shown on your
monthly statement or by calling us at (800) 743-7228. If you call, you must confirm the request in writing within fourteen (14)
days. A written stop payment order will remain in effect for six (6) months and then it will lapse unless renewed in writing.
SURRENDER OF CONVENIENCE CHECKS: Convenience checks are the Credit Union’s property; the Credit Union
reserves the right to revoke them at any time. You agree to return them at the Credit Union’s request
MISCELLANEOUS
MONTHLY FICO® SCORE: You understand and agree that one of the features of this account is that your FICO® Score will
be included on every periodic statement, and will be updated on a monthly basis. If you do not want to receive your FICO®
Score, notify us by calling (800) 743-7228, visit any branch or submit a Secured Message through Online Banking at
www.arrowheadcu.org.
LOST OR STOLEN CARD, NOTIFICATION AND LIABILITY: You will notify us IMMEDIATELY if you believe your card,
account number, PIN, or any combination of the three has been lost or stolen by calling us at (800) 743-7228 or submit a
Secured Message through Online Banking at www.arrowheadcu.org. For 24-hour card service, call (866) 212-4333.
Telephoning is the best way of keeping your possible losses down. You understand that your total liability to us will not
exceed $50.00 for any account and/or card transactions resulting from the loss, theft, or other unauthorized use of the
account and/or card that occurs prior to the time you give notice to us.
8

09/2019

LIMITATION OF LIABILITY FOR VISA TRANSACTIONS: If there is an unauthorized use of your Visa card or a Plus
network or Interlink transaction, and the transaction takes place on the Visa network, then your liability will be zero ($0.00).
This provision limiting your liability does not apply to Visa Business card transactions, ATM cash disbursements processed
on non-Visa or non-Plus networks, or non-Visa PIN-less debit transactions. Additionally, your liability with respect to
unauthorized transactions may be greater than the above zero ($0.00) liability limit, to the extent allowed under applicable
law, if we reasonably determine you were negligent or fraudulent in the handling of your account or card.
VISA CLASSIC SECURED CREDIT CARD: If you have signed a separate Share Pledge Agreement for Visa Classic
Secured Credit Card, you understand and agree that you are pledging funds now on deposit in a deposit account you have
with us. You understand that you must, at all times, keep a sum equal to your credit limit on deposit in the designated deposit
account identified on the Share Pledge Agreement for Visa Classic Secured Credit Card until you pay your entire account
balance and the account is closed. You understand and agree that this security interest will cover future transactions under
this Agreement. If you default, we may apply the pledged funds to pay your account balance in accordance with federal or
other law. You understand that the APR applicable to your account applies only to the credit limit amount. The enclosed
Share Pledge Agreement for Visa Classic Secured Credit Card must be executed in connection with the issuance of a Visa
Credit Card.
INACTIVE ACCOUNT: If your account does not have any activity for twelve (12) consecutive months, it will be considered
an inactive account and your ability to take advances against your credit limit may be suspended. If your account is inactive
for eighteen (18) consecutive months, we may close it without notice.
PERIODIC STATEMENTS: Your card or other account activity will be reflected on your monthly periodic statement. We will
send you a statement for each billing cycle in which transaction activity has occurred on your account. Your statement will
identify the merchant, electronic terminal, or financial institution at which transactions were made, but sales, cash advance,
credit, or other receipts cannot be returned with the statement. You agree to retain the copy of such receipts furnished at
the time of the transaction in order to reconcile your statement. If you request a copy of any sales draft or similar document,
a document fee may be imposed by us. This fee will not be imposed, however, if it was requested in connection with a billing
error. Statements will be mailed or delivered electronically if you have agreed to receive notices from us in an electronic
format only to the address of the person named first on the account.
OVERDRAFT AUTHORIZATION: By having an account, you can enroll into our overdraft protection plan. What that means
is we may clear any overdrafts from your Credit Union checking account by an advance from your account in $100
increments to include applicable overdraft fees, subject to the terms of this Agreement. If there are not sufficient funds
available for overdraft protection, your items may be returned unpaid. Your account must be current and not over the credit
limit for funds to transfer to your checking account.
ASSIGNING THIS AGREEMENT: We may sell, transfer or assign this Agreement and your account to a third party. We
may do so at any time without notifying you. You may not sell, assign or transfer your account or any of your obligations
under this Agreement.
ENFORCING THIS AGREEMENT: We will not lose our rights under this Agreement because we delay in enforcing them
or fail to enforce them. If any provision of this Agreement is found to be unenforceable, all other provisions of the Agreement
will remain in effect.
COLLECTION COSTS: To the extent permitted by law, you are liable to us for our legal costs if we refer collection of your
account to an attorney who is not our salaried employee. These costs may include reasonable attorneys’ fees, as well as
costs and expenses of any legal action.
UNFORSEEN CIRCUMSTANCES: From time to time, our services might be unavailable due to circumstances beyond our
control, such as fires, floods, natural disasters, system failures or other unpredictable events. When this happens, you may
not be able to use your card or obtain information about your account. We are not responsible or liable if this happens.
GOVERNING LAW: You understand and agree that this Agreement will be governed by the laws of the State of California
to the extent that California law is not inconsistent with controlling federal law. You also understand and agree that
California's choice of law rules shall not be applied if they would result in the application of non-California law.
MEMBERSHIP REQUIREMENT: You understand and agree that you must be and remain a member in good standing with
us to be eligible for continuing account and/or card privileges including future transactions. You understand and agree that
we may suspend or close the account and/or card privileges during any period in which you do not maintain your
membership with us.
FINAL EXPRESSION: This Agreement is the final expression of the terms and conditions of your account. This Agreement
may not be contradicted by evidence of any alleged oral Agreement.
COPY RECEIVED: You acknowledge receipt of a copy of this Agreement and agree to accept its terms.
NOTICE: See the statement below for important information regarding your right to dispute billing errors.
9

09/2019

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at: Arrowhead Credit Union, PO Box 4100, Rancho Cucamonga, CA 917299998
In your letter, give us the following information:
•
•
•

Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of Problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a
mistake.

You must contact us:
•
•

Within sixty (60) days after the error appeared on your statement.
At least three (3) business days before an automated payment is scheduled, if you want to stop payment on the amount you think
is wrong.

You must notify us of any potential errors in writing. You may call us; but if you do, we are not required to investigate any potential errors
and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
Within thirty (30) days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2.
Within ninety (90) days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•
•
•
•

We cannot try to collect the amount in question or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
•
•

If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within ten (10) days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name
of anyone to whom we reported you as delinquent; and we must let those organizations know when the matter has been settled between
us. If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct
the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we
mailed to you or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, you need to contact us in writing at: Arrowhead Credit
Union, PO Box 4100, Rancho Cucamonga, CA 91729-9998. While we investigate, the same rules apply to the disputed amount as
discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may
report you as delinquent.

10

09/2019

